  U.S. DEPARTMENT OF COMMERCE
            Office of Inspector General




                       U.S. Census Bureau

Census 2010: Revised Field Data Collection
        Automation Contract Incorporated
                  OIG Recommendations,
          But Concerns Remain Over Fee
             Awarded During Negotiations


               Final Report No. CAR 18702 March 2009




    FOR PUBLIC RELEASE


                             Office of Audit and Evaluation
                              Report In Brief
                                         U.S. Department of Commerce Office of Inspector General
                                                               March 2009



Why We Did this Review U.S. Census Bureau
The mounting problems with
the Census Bureau’s original      Census 2010: Revised Field Data Collection Automation
Field Data Collection Automa-
tion (FDCA) contract prompt-      Contract Incorporated OIG Recommendations, But Con-
ed the April 2008 decision to     cerns Remain Over Fee Awarded During Negotiations
modify the contract so as to      (CAR-18702)
reduce Harris Corporation’s
role in providing 2010 decen-     What We Found
nial systems and services. The
renegotiations allowed the        Though the cost plus award fee contract was appropriate for FDCA, the award
bureau to revisit the contract    fee structure was not tied to measurable performance criteria or milestones,
type and fee structure and        and Census did not establish fixed pricing for applicable items. As a result:
modify them as appropriate.
                                  •	 Award fees were excessive and not supported by technical assess-
To aid the bureau’s contract         ments of Harris’s performance. Harris received 93 percent
restructuring and nego-              ($3.2 million) and 91 percent ($11 million) of available fees for periods 1
tiations, we audited FDCA’s          and 2, respectively, despite serious performance problems noted by Cen-
original terms to determine
                                     sus’s technical reviewers. And the fee determination process lacked key
whether (1) award fees paid
to Harris for the first two          features—such as qualitative measures and mid-point assessments—for
performance periods were             ensuring awards were appropriate.
appropriate, (2) the incentive    •	 The award fee structure did not effectively promote excellent perfor-
fee structure was the most
effective for motivating excel-
                                     mance. Lacking defined performance criteria, the fee structure contained
lent performance, and (3) the        no quantitative goals that dictated potential fee amounts as an incentive
cost plus award fee contract         for achievement. Contract provisions further allowed unearned award fees
arrangement is the most suit-        to be rolled over to subsequent periods, giving Harris the opportunity to
able for acquiring the needed        earn any withheld amounts and minimizing the motivational impact that a
systems and services.                fee reduction is intended to have.
Background                        •	 Census missed opportunities to control costs and manage risk. The
The FDCA contract was for            FDCA Acquisition Plan identified several elements that would be fixed
a mix of relatively high-risk        price, such as mobile computing devices and office furniture. The bureau
deliverables and standard IT         ultimately awarded the contract for full cost-reimbursement but did not
products and services. Com-
                                     document why.
plete requirements for both
types of deliverables were un-
known at the time of contract     What We Recommended
award and their costs were
therefore difficult to predict.   We briefed Census on our audit findings in August 2008. We made recommen-
Under the Federal Acquisition     dations for improving the FDCA contract by, among other things, establishing
Regulation, a cost plus award     measurable criteria for assessing performance and determining fees; modify-
fee contract is appropriate       ing the fee structure to promote excellent performance and limit the practice
when high-risk deliverables
                                  of rolling over fees; and incorporating fixed pricing for deliverables, whenever
are involved because they rep-
resent new, untested concepts     possible. Census signed the contract modification on November 20, and incor-
for which the government          porated a number on our recommendations, including those pertaining to fixed
should bear the greater risk.     pricing, performance incentives, and fee rollover.
                                  However, Census agreed to a fixed fee amount of 9.5 percent for the contract
This report is one of a series
responding to then-Secretary      replan negotiation period that would be invoiced at the time the modification
Gutierrez’s request that OIG      was signed. Although the fixed fee is less than the 13 percent maximum al-
review the bureau’s 2010          lowed under the original award fee plan, 9.5 percent is a highly questionable
census plans to determine         amount to guarantee to a contractor the bureau felt was performing poorly.
high-risk areas.
                                                   UNITED STATES DEPARTMENT OF COMMERCE
                                                   Dffic. of Ins!MCtor GCII..r.1
                                                   ~D.C.          20030




March 3. 2009


~[El\IORANOUM     FOR:	 Thomas L. Mesenbourg. Jr.
                        Acting Director, U.S. Census Bureau

                          ~~.~
FROM:	                     Judit.h J. Gordon
                           Assistant Inspector General for Audit and Evaluation

SUBJECT:	                  Census 2010: Revised Fidd Data Collection.Automation
                           Contract Incorporated OIG Recommendations, Bl.t
                           Concerns Remain Over Fee Awarded During Negotiations
                           Final OlG Report No. CAR·18702

This memorandum transmits our final report on our audit of the Field Oata
Collection Automation (FOCAl contract. The purpose of the audit was to aid the
bureau in obtaining the services and productll under this contract. at the best price
and with the lowest risk possible, while ensuring Harrill Corporation is
appropriatel)' motivated to provide the needed level and qualit)' ofsupport
necessary to facilitate a successful 2010 census.

We briefed your staff regarding our findings and recommendations on August 7,
2008-prior to the FOCA contract modification. which was lligned on November 20.
In short, we determined:

   1.	 	 the original award fee plan was ineffe<;:tive and lacked criteria for motivating
         excellent performance;
   2.	 	the fees Harris Corporation roceived for the first two performance periods
         were unwarranted, given the difficulties the company encountered almost
         from the start.
   3.	 	 rating officials had no objective measures for evaluating performance and
         setting appropriate fee amount.s; and
   4.	 	 although the FOCA acquisition plan identified several fued-price
         deliverables. none were in the contract., partially because the bureau was
         uncertam of its own requirements at. the time. However, those requirements
         were more certain during the renegotiation period, so we advised Census to
         consider including fued-priced elements in the restructured contract.

We note that. the bureau did incorporate some of our recommendationll into the
modified contract, as detailed in appendix A to our report. Please advise me by
March 31. 2009. of any additional actions you plan to take in response to our
findings. If you would like to discuss any of the issues raised in this report, please
contact me at (202) 482-2754.

l\ly stalTand I wish to thank Census perr;onnel for the assistance and courtesies
they extended to us as we conducted our audit.

Attachment

00:   Kim White, A!lBOCiate Under Secretary for l\lanagement. Economics and
        Statistics Administration
 

      Arnold A Jackr;on, associate direetor for decennial census
 

      Jeffrey Sisson, acting chief, Decennial Automation Contracts
 

             Management Office
      Patty l\lcGuire, program manager. Field Data Collection Automation
      Michael Palensky, chief, Acquisition Division
      Adam C. Miller. Census audit liair;on
U.S. Department of Commerce                                                                    Final Report CAR-18702 

Office of Inspector General                                                                                March 2009
 



                                                      CONTENTS 



Introduction ................................................................................................................... 1 

Findings and Recommendations ................................................................................... 3 

   I. 	 Award Fees Were Excessive and Not Supported by Technical Assessments 

          of Contractor Performance.................................................................................. 3 

      A. 	Period 1 Rating Reflected Late-Stage Improvements Rather than 

            Consistently Effective Performance ................................................................ 5 

      B. 	 Negative Findings in Period 2 Assessments Do Not Support “Substantial 

            Achievement” .................................................................................................... 6 

      C. 	 Award Determination Process Would Benefit from Quantitative or 

            Qualitative Measures, Consistent Board Membership, and Midpoint 

            Assessments...................................................................................................... 7 

   II. 	 Current Award Fee Structure Did Not Effectively Promote Excellent 

          Performance ........................................................................................................ 9 

   III. Census Missed Opportunities to Control Costs and Manage Risk ................. 11 


Conclusion: Revised Contract Incorporates a Number of OIG Recommendations,
  but Concerns Remain Over Fee Awarded During Re-plan Negotiations ............... 12 

Appendix A: FDCA Re-plan Fact Sheet...................................................................... 14 

Appendix B: Objectives, Scope, and Methodology ...................................................... 15
 

U.S. Department of Commerce                                                             Final Report CAR-18702 

Office of Inspector General                                                                         March 2009
 



                                                   Introduction

In April 2006, the Census Bureau awarded the Field Data Collection Automation
(FDCA) contract to the Harris Corporation for $595.7 million—a 5-year effort
intended to automate and integrate major field operations for the 2010 decennial. A
key feature of FDCA was development of approximately 550,000 handheld
computers for collecting 2010 census data from people who did not return their
questionnaires. The handhelds were intended to replace the millions of paper forms
and maps that enumerators had carried in past decennials when going door to door
to collect household data (“nonresponse follow-up”).

The scope of the FDCA contract was comprehensive and the time frame aggressive:
in addition to the handhelds, the contractor was to furnish all other necessary
computer hardware, software applications, network and communications services,
and related support for census field offices and staff; provide seamless end-to-end
interface among the systems, users, and the bureau’s national and local data
processing operations; and ensure all systems met federal IT security requirements.
Some deliverables were required for operational testing in time for the decennial
dress rehearsal of address canvassing, which was originally scheduled to kick off in
April 20071—only 1 year after the FDCA contract award.

FDCA is a cost plus award fee incentive contract—which means Harris is
reimbursed for the costs it incurs in meeting the contract’s requirements and can
receive additional payments (“award fees”) for performance deemed excellent in
such areas as quality, timeliness, technical ingenuity, and cost-effective
management. Consistent with the Federal Acquisition Regulation (FAR), fees on
incentive contracts represent the contractor’s profit, and cost-reimbursement
incentive contracts are standard practice for large, complex information technology
acquisitions such as FDCA.

For the contract’s first two award fee periods (April to September 2006, and
October 2006 to September 2007), Harris received high ratings and a total of nearly
$14.2 million of a possible $15.3 million—even though development of the
handhelds and numerous other contract activities were going poorly.

We had reported numerous problems with Census’s plans for using the handheld
devices and related field automation earlier in the decade. Census originally
attempted to develop the handhelds in-house and tested prototypes in both 2004
and 2006. The devices had serious problems in both tests. These experiences should
have better informed the bureau’s efforts to define requirements for the contractor.

The contract experienced problems almost from the start. Census and the
Department did not request enough funding for FDCA, causing a funding shortfall

1
    The bureau later delayed the start of dress rehearsal address canvassing to May 2007.


                                                            1

U.S. Department of Commerce                                    Final Report CAR-18702 

Office of Inspector General                                                March 2009
 



in performance period 1, which affected baseline planning activities. Due to this
funding shortfall, Harris was forced to rebaseline its proposed solution, resulting in
a new contract amount of $623.8 million. Another significant problem Census
encountered was the failure of senior Census Bureau managers in place at the time
to anticipate the complex IT requirements involved in automating the census.
Census changed requirements several times, which caused delays and increased
costs, and Harris experienced ongoing problems related to planning, development,
testing, and security. Harris was also struggling to provide regional computer and
network infrastructure and help-desk operations, all of which needed to be
successfully integrated with the handhelds and national data processing operations.
As late as January 2008—nearly 2 years after contract award—Census finally
delivered a first draft of a complete, user-validated set of requirements for the
handhelds and supporting infrastructure. The first live decennial operation—
address canvassing—was now just a year away.

By the end of April 2008, contract costs totaled more than $204 million—roughly
$50 million over what was originally estimated to be spent by this time. The
mounting FDCA problems prompted the decision, in April 2008, to abandon use of
the handhelds for nonresponse follow-up while keeping them for address
canvassing, which reduced the number needed to just 151,000. This change set in
motion contract renegotiations between the bureau and Harris, with each party
redefining its respective role to minimize cost and schedule risks, reduce Harris’s
involvement, and reassign to the bureau many of the functions it has performed in
past decennials (see appendix A for a summary of major scope changes since
contract award). The renegotiations also gave the bureau the opportunity to revisit
the contract type and fee structure it originally negotiated, and modify it as
appropriate. At the end of September 2008, Census and Harris agreed on a total
estimated price of $797.9 million for the renegotiated contract. (See appendix A.) At
that point, over $300 million of this total had been spent

With this in mind, we conducted an audit to determine whether (1) award fees paid
to Harris for periods 1 and 2 were appropriate, (2) the incentive fee structure used
in those periods was the most effective for motivating excellent performance, and
(3) the cost plus award fee is the best contract arrangement for acquiring the
system. (See appendix B for a full discussion of our objectives, scope, and
methodology.)

We briefed the bureau on our audit findings and recommendations, reported here,
in August 2008. On November 20, Census signed a contract modification with
Harris that contained many of our recommended changes. We detail the bureau’s
responsive changes on page 12.




                                          2
 

U.S. Department of Commerce                                           Final Report CAR-18702 

Office of Inspector General                                                       March 2009
 



                           Findings and Recommendations

I.	 Award Fees Were Excessive and Not Supported by Technical
    Assessments of Contractor Performance

A cost plus award fee contract is appropriate when it is difficult to predetermine
cost, technical, and schedule performance targets for a project. These contracts are
widely used to procure the development of new, complex systems like FDCA. Under
this arrangement, the contractor is paid for all allowable costs and offered
incentives to make its “best effort” to accomplish the work. These contracts operate
on the theory that although the government assumes most of the risk, it controls
the contractor’s potential profit: award fees are tied to the government’s evaluation
of the contractor’s performance and therefore must be earned. The FAR states that
award fee is based on the government’s judgmental evaluation of contractor
performance under the criteria stated in the contract; a 2007 Office of Federal
Procurement Policy (OFPP) memorandum on the appropriate use of incentive
contracts states that evaluation factors should be meaningful and measurable.

The FDCA contract was for a mix of relatively high-risk deliverables and standard
IT products and services. The full requirements for both types of deliverables were
unknown at the time of contract award and their costs were therefore difficult to
predict with a high level of certainty. Under the FAR, a cost plus award fee contract
was appropriate for the high-risk                  Table 1. Performance Rating Scale and
deliverables because they represented new,      Potential Maximum Award Fees (Periods 1-3)
untested concepts for which the bureau          Performance rating of
should bear the greater risk. The FDCA           •	 Full Achievement earns 93-100% of 

award fee structure, however, was not tied          available fees

to any measurable performance criteria or        •	 Substantial Achievement earns 85-92%
milestones.                                      •	 Acceptable Achievement earns 75-84%
                                                  • Partial Achievement earns 50-74%
Harris had proposed a multiple-incentive
approach that included award fee, fixed         (No fee if rated below 50%)
fee, and incentive fee. Cost-plus-incentive     Maximum payout for Full Achievement equals
fee is another type of cost-reimbursable
                                                  •	 $3,472,167 in Period 1 (6 months—April
incentive contract permitted by the FAR.             2006 to September 2006)
In contrast to award fees, which allow            •	 $11,813,746 in Period 2 (12 months—

subjectivity, incentive fees must be tied to         October 2006 to September 2007) 

objective cost, schedule, and performance         •	 $10,708,628 in Period 3 (7 months—

targets. The incentive fees proposed by              October 2007 to April 2008) 

Harris were to be placed in discrete pools
solely tied to quantifiable measures for        Maximum Total for all 3 periods = $25,994,541
attaining key program milestones
including successful support for completion of address canvassing, and completion
of nonresponse follow-up during dress rehearsal and decennial operations. The
FDCA contracting officer stated this approach was rejected because the bureau


                                               3
 

U.S. Department of Commerce                                            Final Report CAR-18702 

Office of Inspector General                                                        March 2009
 



found Harris’s proposed metrics and milestones unacceptable. Among other things,
Harris’s proposal did not include an incentive to control cost as required by the FAR
for cost-plus-incentive-fee contracts. Despite efforts during negotiations, Census and
Harris could not agree on acceptable metrics and milestones and as a result, Census
implemented an award fee plan that provided an award fee of 12 percent of total
contract costs spread over 11 evaluation periods. Payment of the fee was not tied to
any specific objective criteria.

The plan established four broad performance areas that Harris would be rated on
for each period, and the combined score for the four areas would determine the fee
amount. The four areas (and corresponding percent of the overall rating) are
Business Management (33 percent), Technical Management (34 percent), Project
Integration (23 percent), and FDCA/DRIS (Decennial Response Integration System)
Integration (10 percent). Table 1 shows the performance rating scale and potential
award payouts. Under the terms of the award fee plan, if the contractor receives
less than the full amount, the fee determining official has the discretion to roll the
remainder into the next period and
add it to the potential earnings.

The bureau devised a five-step
assessment process for
determining fee amounts (figure 1):
    1. Census technical monitors 

       for FDCA continually track

       and assess the contractor’s 

       technical performance and

       submit monthly reports to

       the principal technical

       monitor. Technical monitors 

       may also submit “individual

       event” reports describing 

       performance that is

       exceptional—exceptionally

       good or bad.

    2. Census’s principal technical

       monitor for FDCA reviews 

       the technical monitors’ 

       reports and prepares a 

       summary report from them,

       which is submitted to the 

       contracting officer’s 

       technical representative

       (COTR). The principal 

       technical monitor also 
          Figure 1: Award Fee Determination Process
                                         Source: Census Bureau, FDCA Contract Award Fee Determination Plan


                                          4

U.S. Department of Commerce                                    Final Report CAR-18702 

Office of Inspector General                                                March 2009
 



      prepares a final report at the end of each reporting period that summarizes
      performance for the entire period.
   3. Harris submits a self-assessment covering the performance period, in which
      it discusses the accomplishments and challenges of the period, and grades its
      performance using the plan’s rating scale.
   4. The COTR presents the Award Fee Determination Board (AFDB) with the
      technical monitoring reports and the contractor’s self-assessment for review.
      The board meets, arrives at a consensus for each performance area, and
      recommends a fee amount to the fee determining official (FDO) within
      40 calendar days after the end of the evaluation period. The fee determining
      official is a senior bureau official who is independent of the AFDB and
      designated to make the final decision as to how much award fee is given to
      the contractor.
   5. The fee determining official reviews the board’s recommendation and sets
      the final award fee. The contracting officer notifies the contractor of the final
      decision.

A. 	Period 1 Rating Reflected Late-Stage Improvements Rather than
    Consistently Effective Performance

For period 1 (April 1 – September 30, 2006), Harris received a rating of 93 percent
(full achievement) and $3,218,005 of the available fee. According to the award fee
plan, full achievement means “the contractor consistently meets or exceeds all
Census Bureau performance objectives. Management, supervision, performance,
response times, and cost control effectiveness are performed consistently at a level
considered the best any contractor could be expected to achieve, under similar
circumstances. Inspections seldom find deficiencies.”

Our analysis showed the payout to be excessive because the supporting
documentation indicates that Harris did not meet the stated criteria: the principal
technical monitor’s report for this period emphasizes several areas where the
contractor showed improvement over time rather than being consistently effective
throughout the period. This report and the supporting technical monitor reports
also describe weaknesses in key program areas and list a number of significant
unresolved performance problems, such as the following:

   •	 Software design depends on “heroics of individuals.”
   •	 Lack of quality and technical depth in security-related deliverables.
   •	 Poor communications about aspects of FDCA solutions.
   •	 Need for better long-term approach for requirements validation that can be
      shared with stakeholders.
   •	 Risk management program did not reflect industry best practices.
   •	 Growing concerns that subcontractor was not fully prepared to meet certain
      infrastructure requirements.


                                          5
 

U.S. Department of Commerce                                    Final Report CAR-18702 

Office of Inspector General                                                March 2009
 



Notwithstanding these negative assessments from the principal technical monitor,
the report from the Award Fee Determination Board contains relatively few
negative comments and did not reflect the findings of the technical monitor’s report.

B. Negative Findings in Period 2 Assessments Do Not Support “Substantial
   Achievement”

Despite significant problems with the handhelds during address canvassing dress
rehearsal, Harris received a “substantial achievement” rating and earned
91 percent ($10,981,751) of the available fee for period 2 (October 1, 2006 –
October 1, 2007), which included the rollover amount of $254,112 from period 1.
Substantial achievement is defined as follows:

      The contractor consistently meets all Census Bureau performance
      objectives. Management, supervision, performance, response times,
      and cost control effectiveness are performed consistently at a level
      considered higher than any contractor could be expected to achieve,
      under similar circumstances. Inspection deficiencies are minor,
      inconsequential, or easily corrected.

Again, this award fee payment was not supported by the principal technical
monitor’s report. Although the report for this period contained many positive
observations, there were a substantial number of negative remarks in significant
areas:

   •	 Lack of clear, consistent software development milestones or operational
      critical path.
   •	 Lack of adequate long-term software development plans and consistent,
      documented software life cycle.
   •	 Fixing software defects delayed testing and development of subsequent
      software increments.
   •	 Delays in readiness of Reston Data Processing Center caused a ripple effect
      throughout the program.
   •	 Contractor reactive rather than proactive in areas of security and address
      canvassing software development.
   •	 Contractor staffing not allocated as needed by Census, causing loss of critical
      schedule time.
   •	 Inadequate planning caused the contractor to repeatedly call on the same
      stakeholders, making them unable to provide complete information on a
      consistent basis.
   •	 Several fundamental flaws with performance baseline implementation went
      uncorrected.
   •	 Continuing issues between contractor and subcontractors were not resolved.
   •	 Help Desk Operations struggled throughout AC [address canvassing] 

      operations in several areas. 



                                          6
 

U.S. Department of Commerce                                     Final Report CAR-18702 

Office of Inspector General                                                 March 2009
 



The Award Fee Determination Board’s own report to the fee determining official did
not support its recommended rating of substantial achievement, given the negative
comments the report included:

   •	 Master Integrated Program Schedule not used as a management tool or
      record of authority on project status.
   •	 Contract Data Requirements and invoices needed many revisions.
   •	 Lack of mutually understood, well defined, and accepted project baseline.
   •	 Engineering Change Proposals lacked timeliness, clarity, and accuracy.
   •	 Processes do not “flag” to Harris management that serious problems exist
      and should be addressed.
   •	 The failure and abandonment of the Help Desk approach.

The FAR allows judgment in award fee determinations, in accordance with terms of
the criteria stated in the contract. As noted previously, OFPP states that the
criteria should be measurable. In our opinion, the evaluations for periods 1 and 2
did not follow this guidance and were overly subjective, resulting in inflated award
fees.

C. Award Determination Process Would Benefit from Quantitative or
   Qualitative Measures, Consistent Board Membership, and Midpoint
   Assessments

Other aspects of the determination process also required improvement to ensure fee
amounts are appropriate:

 1. The principal technical monitor’s assessments were narrative only—they did 

    not provide quantitative (e.g., 1 to 4) or qualitative (e.g., high, medium, low) 

    ratings of the evaluation areas. This made it difficult for the Award Fee 

    Determination Board to assess the relative strengths and weaknesses of the 

    contractor’s performance within each evaluation area and overall. 

 2. The award fee plan did not establish a definitive board membership. Rather, in
    addition to certain standing members, the board consisted of “selected program
    managers” who could change from one evaluation period to the next. This
    structure does not promote consistency in the evaluations over time and does
    not ensure that the board consists of senior officials.
 3. The plan did not describe a structured process that ensures the views of
    individual members are taken into account. Decisions flow from general
    discussion to general agreement regarding the final rating. It was unclear
    whether individual members had adequate input and whether their views
    receive appropriate consideration. (The FDCA contracting officer stated that
    the process was structured to allow for individual members to have adequate
    input, including submitting their individual scores. However, the process was
    not adequately documented in the plan.)


                                           7
 

U.S. Department of Commerce                                                         Final Report CAR-18702 

Office of Inspector General                                                                     March 2009
 



    4. The award fee plan stated that “At the Government’s discretion, the [board]
       may evaluate the contractor’s in-period performance at the approximate
       midpoint of the award fee evaluation period.” After receiving scores of
       93 percent and 91 percent for performance that did not reflect the defined
       levels of excellence, Harris earned no award fee for the third period
       (October 2, 2007 – April 30, 2008), yet Census never formally conveyed
       dissatisfaction with the firm’s performance as the period progressed via a
       formal midpoint evaluation.2 At the end of the period, Harris graded itself at
       93 percent (full achievement) in its self-assessment, indicating it was unaware
       of any major performance problems. The board rated Harris at         percent
       (acceptable achievement) and listed areas requiring improvement in all four
       performance monitoring areas, while also taking into consideration “the effect
       of overall project characteristics or constraints” that were not within the
       contractor’s control. The fee determining official, however, determined that
       Harris’s poor performance far outweighed other considerations, disagreed with
       the board’s recommendation, and denied Harris any fee.

Recommendations

We recommended that in future performance periods, the Census Bureau take the
following actions to ensure fee awards fairly reflect contractor performance:

    1. Ensure fee evaluations are consistent with established criteria.
    2. Evaluate the contractor based on its performance throughout the period, rather
       than heavily weighting results at the end of the period.
    3. Ensure final reports from the principal technical monitor include a qualitative
       or quantitative rating for each rated element and the overall report to help the
       fee board assess positive and negative comments.
    4. Establish permanent board membership to provide consistency across periods
       and ensure the membership is comprised of senior officials who can bring a
       broader management perspective to the assessment.
    5. Adequately document a more structured board deliberation process that
       records individual members’ evaluation ratings and factors them into the final
       overall rating.
    6. Provide interim feedback to the contractor during every fee period.




2
 During this period, Census reassessed the use of the handhelds for nonresponse follow-up and the decision to
descope the FDCA contract was made.


                                                        8

U.S. Department of Commerce                                       Final Report CAR-18702 

Office of Inspector General                                                   March 2009
 





II. Current Award Fee Structure Did Not Effectively Promote Excellent
    Performance

According to the FAR, an award fee is a payment that the contractor may earn in
whole or in part during performance and that is sufficient to provide motivation for
excellence. As mentioned earlier, the FDCA award fee plan contained no specific
objective criteria: fees were not tied to the
                                                         Table 2. Unearned Award Fees
completion of any technical tasks or milestones. To        Rolled Over to Subsequent
motivate excellence, the award fee plan should be             Performance Periods
based primarily on technical performance                Period 1: $254,112 rolled over to
incentives tied to the completion and results of                 period 2.
specified project events. For example, Census           Period 2: $1,086,107 rolled over
                                                                 to period 3.
could have contractor performance provisions such
as reconfiguring regional census centers and            Period 3: $11,794,735 rolled over
                                                                 to period 10.
successful integration testing. Also, cost and
schedule performance incentives should be tied to
completion of specified milestones, such as on-time start/completion of address
canvassing and early local census office/local census office installation.

In addition, the original award fee plan stated that the bureau “reserves the right to
roll any unearned award fee from a previous evaluation period into a subsequent
award fee evaluation period.” A 2007 contract modification provided for the rollover
of unearned fees from period 1 into period 2 and from period 2 into period 3. It also
provided for the rollover of unearned fee in periods 3 through 9 into period 10
(table 2). The ability to roll fees into period 10 gave Harris another opportunity to
earn all unearned fees at the end of the contract based on final performance ratings.
This change was part of the bureau’s negotiation with Harris to extend period 2
from 6 months to 12 months. According to Census, it was necessitated by severe
budget constraints in fiscal year 2007 and enabled the bureau to defer what could
have been a $3.4 million award fee payment.

Contract provisions that allow unearned award fees to be rolled over to subsequent
evaluation periods give the contractor the opportunity to earn all withheld amounts
and minimize the motivational impact on consistent performance that a fee
reduction is intended to have. According to the December 2007 OFPP
memorandum, the practice should be restricted: “Rolling over fees is not the
preferred method for incentivizing the contractor to perform above satisfactorily
and should be permitted on a limited basis and require prior approval of the
appropriate agency official.”




                                            9
 

U.S. Department of Commerce                                    Final Report CAR-18702 

Office of Inspector General                                                March 2009
 



Recommendations

We recommended that Census revise the FDCA fee plan as follows:

 1. Tie incentive fees to the maximum extent practicable to objective cost, 

    schedule, and performance criteria;

 2. Limit the award of fees based on subjective criteria (e.g., to no more 3 percent
    to 5 percent of total fee) and use such criteria only when objective measures for
    a task are not practical (e.g., overall program management, performance
    baseline management, risk management); and
 3. Permit rollover of unearned fees only on a limited basis and only with prior 

    approval of the appropriate agency official in accordance with the OFPP 

    memorandum. 





                                         10
 

U.S. Department of Commerce                                    Final Report CAR-18702 

Office of Inspector General                                                March 2009
 



III.   Census Missed Opportunities to Control Costs and Manage Risk

The FDCA Acquisition Plan stated that the bureau intended to award a cost plus
award fee contract, but also identified several elements that would be fixed price:
office automation equipment, mobile computing devices, help desk calls, and local
census office furniture and computing equipment. Because of initial uncertainty
about system requirements, Census did not ask for fixed pricing in contract
proposals for FDCA. The request for proposal contained a simplified contract line
item structure that did not lend itself to different pricing techniques for the
different project components. The bureau ultimately awarded the contract for full
cost reimbursement for all tasks and deliverables. However, the bureau did not
document why fixed-price elements were not included in accordance with the
acquisition plan.

At the time of our review, the system development process was far enough along to
give the bureau a solid understanding of most system requirements, including those
components that lend themselves to fixed pricing.

Recommendations

We recommended that the bureau should take advantage of the contract
restructuring and renegotiation to include fixed-price elements as appropriate.
Specifically, Census should:

 1. set a fixed price for local census office equipment and installation, and for any
    remaining services as appropriate, and justify decisions against fixed pricing
    for deliverables that otherwise lend themselves to this option; and

 2.	 use a more detailed contract line item structure showing the different 

     deliverables that will be priced separately. 


We also recommend that for tasks removed from the FDCA contract and assigned to
a different contractor, Census use fixed-price arrangements whenever possible.




                                          11
 

U.S. Department of Commerce                                    Final Report CAR-18702 

Office of Inspector General                                                March 2009
 



Conclusion: Revised Contract Incorporates a Number of OIG
Recommendations, but Concerns Remain Over Fee Awarded During
Re-plan Negotiations

We presented our findings and recommendations to Census officials in an
August 2008 meeting, as the bureau’s negotiations with Harris to restructure the
contract were in process. The contract modification, which was signed on
November 20, incorporated a number of features that were based on our
recommendations. For example:

   1. Fixed pricing was incorporated for leased equipment, handheld computers,
      and local census office equipment.

   2. The practice of rolling over unearned fee amounts was discontinued for all
      future award fee periods. However, $11.8 million of rollover fee from period 3
      still remains in the contract as part of the technical performance incentive fee
      that can be earned at the completion of major milestones. Further
      negotiations with Harris would have been required to remove this fee from
      the contract.

   3. The original award fee structure was discontinued for future performance
      periods and replaced by one that contains both a cost incentive fee and a
      technical performance incentive fee for the bulk of the remaining cost
      reimbursable work.

      The cost incentive fee offers Harris a target fee of 9.5 percent of the target
      cost (i.e., the estimated cost) of the remaining prime contract support (from
      October 2008 to December 2011). This fee will be increased by 20 cents for
      every dollar that the total final negotiated allowable cost is less than the
      target cost or decreased by 20 cents for every dollar that the final negotiated
      allowable cost is over the target cost. The maximum and minimum cost
      incentive fees are 11.5 percent and 7.5 percent, respectively.

      The technical performance incentive fee pool is 6 percent of the estimated
      cost of the remaining prime contract support effort, divided into five
      performance periods that correspond to specific milestones/events. If a
      defined milestone is not reached, the contractor receives no fee for that event,
      and the fee is not rolled over.

The total estimated price of the modified contract is $797.9 million, including
$70.4 million in potential fees (see appendix A). Harris has already received
$22.8 million of this potential fee amount, leaving a remainder of $47.6 million,
including $11.8 million of rollover fee from period 3 (available from October 2008 to
December 2011). Of the $22.8 million in fees already awarded, $8.6 million was
earned during the contract re-plan negotiations (May 1 to September 30, 2008)


                                         12
 

U.S. Department of Commerce                                    Final Report CAR-18702 

Office of Inspector General                                                March 2009
 



under a cost plus fixed fee arrangement. Under the original contract, this period
would have been award fee period 4. According to the bureau, Harris would not
continue with the contract re-plan under the existing award fee arrangement
because it had earned no award fee for period 3 and felt it would not receive a fair
or objective evaluation of its future performance. Census agreed to a fixed fee
amount that could be invoiced at the time the modification was signed. Census
negotiated a 9.5 percent fee, which the bureau points out is much less than the
13 percent maximum potential fee Harris could have earned under the award fee
plan.

Although the fixed fee was less than the maximum allowed under the award fee
plan, 9.5 percent was a highly questionable amount to guarantee to a contractor the
bureau felt was performing poorly. The fixed fee also eliminated the bureau’s ability
to actually grade Harris’s performance during the re-plan period and make an
award commensurate with the contractor’s performance. The bureau, however, was
in a weakened bargaining position. It had to negotiate the contract in a sole source
environment without the benefit of competition to moderate prices, and it bore
considerable responsibility for the FDCA problems. Census had not requested
adequate funding for the program at the outset, and as the former Census Bureau
director stated in testimony in April 2008, “We did not effectively convey to the
contractor the complexity of census operations, and the detailed requirements that
needed to be fulfilled in order to complete the operations that FDCA covers.”

Given the history of this contract and the substantial amount of potential fee
remaining, Census should implement the fee evaluation process in the most
rigorous way possible to ensure that fee awards are truly earned, and that Harris is
incentivized to effectively support the 2010 decennial census and maximize value
for the taxpayer.




                                          13
 

U.S. Department of Commerce                                                           Draft Report CAR-18702 

Office of Inspector General                                                                    December 2008
 



                            Appendix A: FDCA Re-plan Fact Sheet

A. Changes in FDCA contract value since contract award
                   FDCA Contract,             FDCA Rebaseline,           FDCA Re-plan, October 2008
                   April 2006                 September 2006
Contract           Cost plus award fee        Cost plus award fee        Cost plus incentive
Type                                                                     fee:                       $226.0 million
                                                                         Firm fixed price:          $170.8 million
                                                                         Cost plus fixed
                                                                         fee:a                      $ 70.5 million
                                                                         Cost plus fixed feeb       $ 99.5
Total              $595.7 million             $623.8 million             $797.9 millionc
Estimated
Cost/Price
Total              $71.5 million              $74.8 million              $70.4 million
Potential Fee
a
  Covers certain infrastructure material (e.g., Microsoft software licenses, VoIP hardware for data processing and 

operations centers), work for which Harris now has a support role as opposed to primary responsibility, and need for 

rapid response to small revisions in requirements while still adhering to critical schedule milestones. 

b
  For activity between May 1, 2008 – September 30, 2008, when re-plan negotiation was taking place. 

c
  Includes $219.4 million of cost and fee prior to re-plan and $11.8 million in fee rolled over from period 3.
 




B. Scope changes reflected in the October 2008 FDCA re-plan

         •	 Removed handheld computers for nonresponse operations and census coverage
            measurement
         •	 Transferred control systems for paper-based operations, including nonresponse
            operations, to Census
         •	 Transferred regional census center (RCC) telecommunications to Census
         •	 Transferred most of the help desk effort to Census
         •	 Transferred RCC support effort to Census
         •	 Transferred Decennial Applicant, Personnel and Payroll System (DAPPS) hosting to
            Census
         •	 Transferred leadership of security management effort to Census




                                                         14
 

U.S. Department of Commerce                                 Draft Report CAR-18702 

Office of Inspector General                                          December 2008
 



              Appendix B: Objectives, Scope, and Methodology

The severe problems with the acquisition of the Field Data Collection Automation
(FDCA) system have contributed to a cost increase for the 2010 decennial census of
billions of dollars and introduced enormous schedule and performance risks. At the
time of our audit, the FDCA contract was being renegotiated and substantially
reduced in scope. In this audit we assessed whether the Census Bureau (1) used the
most effective contract type to acquire the Field Data Collection Automation
system, and (2) paid appropriate award fees to Harris Corporation. We also sought
to determine whether an alternative contract structure would be more effective for
the FDCA procurement.

To meet our objectives we did the following:

   ●	 Reviewed and analyzed FDCA pre- and post-award contract documents and
      other related documentation generated between October 2003 and July 2008,
      available from the U.S. Census Bureau’s Acquisition and FDCA program
      management offices, and the Decennial Management, Financial Management
      and Field Divisions. This included, among other things, contract status and
      award fee evaluation reports regarding Harris, prepared between April 2006
      and March 2008. We also reviewed documents from Harris and The MITRE
      Corporation, a Federally Funded Research and Development Center
      (FFRDC) hired by the bureau to support census operations.

    • Interviewed Census acquisition and program officials, including the bureau’s
      chief of acquisitions; the contracting officer, FDCA project manager, and
      business manager for the FDCA contract; the assistant chief of the bureau’s
      Financial Management Division; and the assistant chief of the Decennial
      Management Division. We also interviewed officials at Harris and The
      MITRE Corporation.

    • After the contract modification was signed on November 20, 2008, we
      reviewed the revised cost and fee structure.

Internal Control Review: We limited our review of management controls to those
directly related to the areas of contract type and award fee for FDCA.

We conducted our fieldwork from April 2008 through November 2008 at Census
headquarters in Suitland, Maryland, and Commerce headquarters in
Washington, DC. We performed our work in accordance with Generally Accepted
Government Auditing Standards issued by the Comptroller General of the United
States, and under authority of the IG Act of 1978, as amended, and Department
Organizational Order 10-13, dated August 31, 2006.




                                         15
 

